IN THE
SUPREME COURT OF THE UNITED STATES
Case No
Petitioners/ Relators James Beggs and his Wife Joyce Beggs et ux
Vs.
Respondents Beverly Story et al
PROOF OF SERVICE
Th^rPeptioi^rs James Begg^^wffi^gf''' and his wife Joyce
Beggs
Ido swear afm declare that on this date March 4, 2020 as
Requi
upreme Court under Rule 29 Petitioners with included a
filling fee of 300.00 sending Petitioners Petition for a Writ of Certiorari to all
Parties to the above proceeding or that party’s counsel of Record, and on
every other person required to be served under 28 U. S. C. 2403 (a) and the
Solicitor General of the United States Room 5616 Department of Justice 950
Pennsylvania Ave., N. W. Washington, D C 20530-0001 As Said Acts of
Congress and Presidential Executive Orders and Proclamation and Federal
Programs Voided from all Petitioners and Places in Federal Questions.
I, the undersigned,^ ptarypublic in the City and §rcaj/e afoj^said do hereby
certify James Beggs^v/w''(SUb**-_____Joyce BeggsU^Z//
£2_ "we
declare (or certify, vdrify, or state) under penalty of ]ferjury thin the foregoing
is true and correct.
Executed on (date)*^^LZ^/?
TfcO

3-0

Subscribed and sworn to before me this
of
fll/1
20
My Commission expires: ^(ib\
— Notary Publi^U^^-J^sfc

1*52E
M»

LLI >
z
O

2
2

r.

ura

S
<rc

K
z

3

w

^

li3
jw®/ >-

Beverly Story a Former Associate City Attorney from The
Law Office of Eric O. Moody”,
Chesapeake Office
2200 Dunbarton Drive Suit B
Chesapeake, Virginia 23325

4

m

llii I
jg

With Proof of Service By an Affidavit with 3 Book of Petitioners Petition
for Writ for Certiorari, given to each all Respondent by delivery of a thirdparty Commercial Carrier etc., for delivery within 3 days to the Following:
Respondent
Paulette D. Franklin Jenkins
Tort Claim Unit Norfolk
9620 Maryland Ave. Bldg A-50 Suite 205
Norfolk Va. 23511

I §*

O

Respondent
Attorney Cynthia A. King
Past Guardian Litems For Lauryn
P. O. Box 8483 Virginia Beach,
Virginia 23450

“Notes: This Attorney has been allegedly Disbarred,
but will serve her address listind her as a NonInterest Party, sending it to her Address as required
by Supreme Court Pules”.

Respondent
Cunningham Lindsey U.S. Inc.
Chad E. Kurtz, Esq.
Cozen 0 OCONNOR, P. C.
1200 19th Street NW, Suite 300
Washington DC 20036
Attorney Lori A. Butts
The Law Office of Eric O. Moody
On Behalf of Respondent
Beverly Story
Eric O Moody & Associates
355 Crawford Street, Suite 810
Portsmouth, Va. 23704
Substitute for Respondent King
Attorney Nicole A. Belote
Of Kozak, Davis, Renninger & Belote P.C.
Guardian Litems For Lauryn
355 Crawford Street Suite 700
Portsmouth, Virginia 23704
Respondent
Attorney Asha Pandya
125 St. PaulBLVD. Suite 110
Norfolk, Virginia 23510

“Notes: This Attorney has asked me not to
serve her. I have list her as a Non- Interest
Party, sending it to her Address as
required by Supreme Court Rules”.

Respondent
Attorney Afshin Farashahi
One Columbus Center Suite 604
Virginia Beach, VA 23462
United States
Respondent
Cunningham Lindsey U.S. Inc.
Chad E. Kurtz, Esq.
Cozen O OCONNOR, P. C.
1200 19th Street NW, Suite 300
Washington DC 20036

5

Attorney General William Barr
Department of Justice
950 Pennsylvania Ave., N. W.
Washington, D C 20530-0001
Solicitor General of the United States
Room 5616
Department of Justice
950 Pennsylvania Ave.,
N. W. Washington, D C 20530-0001
Courtesy Copy:
American Banker Insurance Companies
do Wolters - Intake Specialist for CT Corporation
208 S. LaSalle Street, suite 1700
Chicago, II 60604
Geico Insurance Agency
e/o/ Beth Roberts
1345 Perimeter Parkway
Virginia Beach, Va. 23454
Richard Ottinger
American Banker Insurance
Company of Florida “Assurant” DBA
Vandeventer Black LLP
101 W. Main Street
5000 World Center
Norfolk, Va. 23501
Richard A Saunder, Esquire .
Attorney for GEICO Insurance Agency, Inc.
6160 Kempsville Circle, Suite 341B
Norfolk, Virginia 2350
FEMA Office of Equal Rights,
500 C. Street S W, Room 617A
Washington, DC 20472
FEMA-Office of Equal Rights
ATTN: CIVIL RIGHTS TITLE VI PROGRAM
300 D St, SW, 8th floor
Washington, D.C. 20472-350

6

